<html>
<title> - ABSTINENCE EDUCATION</title>
<body><pre>[Senate Hearing 108-385]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-385
 
                          ABSTINENCE EDUCATION

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                   FEBRUARY 16, 2004--HARRISBURG, PA

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                   U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2004
92-118 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            TOM HARKIN, Iowa
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland
RICHARD C. SHELBY, Alabama           HARRY REID, Nevada
JUDD GREGG, New Hampshire            HERB KOHL, Wisconsin
ROBERT F. BENNETT, Utah              PATTY MURRAY, Washington
BEN NIGHTHORSE CAMPBELL, Colorado    BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
                    James W. Morhard, Staff Director
                 Lisa Sutherland, Deputy Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
JUDD GREGG, New Hampshire            ERNEST F. HOLLINGS, South Carolina
LARRY CRAIG, Idaho                   DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          HARRY REID, Nevada
TED STEVENS, Alaska                  HERB KOHL, Wisconsin
MIKE DeWINE, Ohio                    PATTY MURRAY, Washington
RICHARD C. SHELBY, Alabama           MARY L. LANDRIEU, Louisiana
                                     ROBERT C. BYRD, West Virginia (Ex 
                                         officio)
                           Professional Staff
                            Bettilou Taylor
                              Jim Sourwine
                              Mark Laisch
                         Sudip Shrikant Parikh
                             Candice Rogers
                        Ellen Murray (Minority)
                         Erik Fatemi (Minority)
                      Adrienne Hallett (Minority)

                         Administrative Support
                             Carole Geagley



                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
Statement of Dr. Wade F. Horn, Ph.D., Assistant Secretary for 
  Children and Families, Department of Health and Human Services.     2
    Prepared statement...........................................     3
Statement of Rev. Kenneth Page, pastor, Great Island Presbyterian 
  Church, Lock Haven, PA.........................................    11
    Prepared statement...........................................    13
Statement of Dominick Urrutia, program coodinator, Abstinence is 
  BEST Program...................................................    14
Statement of Joe Fay, executive director, Pennsylvania Coalition 
  to Prevent Teen Pregnancy......................................    16
    Prepared statement...........................................    17
Statement of Kelly Lesh, Abstinence Education Special Initiative 
  coordinator, Heartbeat Community Service, Millerstown, PA......    19
Statement of Ronald Evans, director, Bridge Youth Services.......    21
Statement of Tyler Barth, performer, Abstinence Group Choice 
  Initiative.....................................................    28
Statement of Miranda Shipley, volunteer, Peer Education, Real 
  Commitment Program.............................................    28
    Prepared statement...........................................    30
Statement of Nelly Torres, peer educator, IMPACT Group...........    30
Statement of Sierra Leiphart, volunteer, Human Life Services, 
  York County, PA................................................    31
Statement of Jennifer Bruno, board member, Youth as Resources 
  Program........................................................    32
Statement of Jesse Walton, staff member, Boys to Men Program.....    32


                          ABSTINENCE EDUCATION

                              ----------                              


                       MONDAY, FEBRUARY 16, 2004

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Harrisburg, PA.
    The subcommittee met at 1:30 p.m., in room 140, Harrisburg 
State Capitol Building, Senator Arlen Specter (chairman) 
presiding.
    Present: Senator Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Good afternoon, ladies and gentlemen. I 
regret being a little bit delayed, but I was filing my papers 
for reelection. And that took just a little bit of time. But 
I'm delighted to be here and I thank you all for coming here. 
We're going to proceed now with the Appropriations Subcommittee 
for Labor, Health and Human Services, and Education. And our 
topic today is going to be abstinence education.
    Several years ago the subcommittee started to engage in 
extensive funding of abstinence education. So that next year 
we're looking at a proposal in excess of $290 million. 
Abstinence education has demonstrated its value in a society 
where there is so much concern about the morality of the young 
people and access to abortions. It is plain that if we can 
persuade young people to avoid premarital sex and unintended 
pregnancies there will be an enormous step forward. The young 
people, the young women then will not have to even consider the 
alternative of abortion. Beyond the issue of unintended 
pregnancies, there is the issue of disease which is transmitted 
and the issue of self-esteem.
    In my travels in talking to many young people who have had 
the benefit of abstinence education, they have a little 
different view of themselves. And you have some of the young 
women saying to the young man who says, if you really love me, 
you will. Her response is, if you really love me, you'll wait. 
The minuet, so to speak, of teenagers.
    There is, we all know, the issue of peer pressure. So that 
abstinence education brings some counter peer pressure. And 
that young people don't have to be with the in-crowd and go 
along with what everyone else is doing, which the statistics 
show are really surprisingly high on sexual intercourse for 
youngsters in high school and even below high school, that they 
will say they counter peer pressure.
    There are some who believe that there ought not to be only 
abstinence education but abstinence should be taught in 
conjunction with contraception. We're going to hear all points 
of view to give people on all sides an opportunity to be heard.
    My own views up till now have been that where you have the 
information on contraception, that there is great value in 
having some abstinence-only education to see how that works. 
And I found that the studies show that abstinence-only 
education does work.

STATEMENT OF DR. WADE F. HORN, Ph.D., ASSISTANT SECRETARY FOR CHILDREN AND
          FAMILIES, DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Senator Specter. With that opening statement, let me call 
upon our first witness. And we thank Dr. Wade Horn for coming 
from Washington today. If Dr. Horn would take the witness 
stand.
    He is the Assistant Secretary for Children and Families of 
the U.S. Department of Health and Human Services. He has held 
that job since July 20, 2001. Prior to that appointment, he was 
president of the National Fatherhood Initiative, graduate of 
American University, Ph.D. in clinical psychology from Southern 
Illinois University. Thank you for joining us here, Dr. Horn, 
and we look forward to your testimony.
    Dr. Horn. Thank you, Senator. Mr. Chairman, I want to thank 
you for providing me with the opportunity to share the 
administration's vision for strengthening abstinence education 
programs.
    As you mentioned, teenager sexual activity has serious 
consequences for teens, their families, their communities, and 
our society. Teenage pregnancy rates are unacceptably high. And 
sexually transmitted diseases among the young continue to 
increase. There also are serious social and economic 
consequences of teenage sexual activity. Therefore, the 
President's fiscal year 2005 budget contains a new initiative 
targeted to helping teens make responsible choices.
    This initiative provides, one, substantial new resources 
for abstinence education, including the Community-Based 
Abstinence Education program and the Adolescent Family Life 
Program.
    Two, the development of scientifically based standards for 
model abstinence education curricula.
    Three, a review of all Federal programming for youth 
addressing teen pregnancy prevention, family planning, STD, and 
HIV/AIDS prevention, and abstinence education with the goal of 
implementing a unified policy framework that recognizes the 
primary importance of helping teens delay the onset of sexual 
activity.
    Four, a public education campaign on how parents can 
encourage their teens to be sexually abstinent.
    I'm going to focus my comments on the role of the 
Administration on Children and Families or ACF in this new 
Presidential initiative. In particular, the Department of 
Health and Human Services fiscal year 2005 budget requests more 
than doubles the funding for the Community-Based Abstinence 
Education program and transfers the administration of this 
program from the Health, Resources, and Services Administration 
or ERSA to ACF.
    The Community-Based Abstinence Education program provides 
grants to public and private entities to help teens make the 
decision to postpone sexual activity until marriage. The 
President's fiscal year 2005 budget requests a total of $186.4 
million in funding for this abstinence education program, a 
$111.9 million increase above fiscal year 2004 funding levels.
    Erie County, Pennsylvania's Abstinence Advantage Program or 
AAP offers a good example of the kinds of activities these 
funds will support. AAP uses nationally recognized curriculum 
in schools and community-based organizations to help teens 
choose abstinence, healthy relationships, and positive futures.
    The President's budget also supports the reauthorization of 
the abstinence education to States program, created under the 
Personal Responsibility of Work Opportunity Reconciliation Act, 
known as PRWORA of 1996. This program provides $50 million 
annually to enable States to provide abstinence education and 
at the option of the State, mentoring, counseling, and adult 
supervised activities to promote abstinence from sexual 
activity until marriage with the focus on those groups which 
are most likely to bear or father children out of wedlock.
    In conjunction with these requests, the President's budget 
proposes to shift responsibility for these programs to the 
Administration for Children and Families.
    Secretary Thompson believes that by relocating these 
programs to ACF's Family and Youth Services Bureau, known as 
FYSB, they can be more fully integrated with the programs that 
emphasized positive youth development. Such programs have been 
found to be particularly effective in protecting young people 
not only from low sexual activity but also from drugs, alcohol, 
tobacco, and violence. At the same time the department will 
continue with scientific inquiry to what works best to further 
support the success of our abstinence education efforts.

                           PREPARED STATEMENT

    In closing, I would like to thank you for focusing on 
improving the lives of our young people and considering how the 
Federal Government can help parents, schools, communities, and 
States make a long-term difference in the lives of our nation's 
youth.
    As Secretary Thompson had said, quote, three-quarters of 
American youth are making safe sensible choices for their lives 
and the remaining quarter may be at risk but they certainly are 
not lost, end quote.
    I look forward to working with you and your committee to 
make the fiscal year 2005 budget request a reality. I would be 
pleased to answer any questions you might have.
    [The statement follows:]

                 Prepared Statement of Dr. Wade F. Horn

    Mr. Chairman, thank you for providing me with the opportunity to 
share the Administration's vision for strengthening abstinence 
education programs. The President's fiscal year 2005 budget makes a 
major investment in this critical area and also seeks your support in 
shifting two of the Department's key programs for addressing abstinence 
education to the Administration for Children and Families. I'd like to 
focus my time today discussing the President's request and the benefit 
this approach will offer to our Nation's youth.

                               background

    Teenage sexual activity and non-marital childbearing have serious 
consequences for teens, their families, their communities and our 
society. While it is true that teenage pregnancy rates are on the 
decline, they are still unacceptably high. Moreover, the incidence of 
sexually transmitted diseases among the young continues to increase. 
There are serious social and economic consequences of teenage sexual 
activity and non-marital childbearing as well. Over three-fifths of 
teen mothers live in poverty at the time of their child's birth, and 
over four-fifths will at some point live below poverty.
    It is not enough for schools and government alone to educate our 
nations' young people on the risks and consequences of pre-marital sex. 
Parents also must be involved in this effort. Unfortunately, parents 
too often do not feel empowered to educate their children about sex 
because they believe that their children would rather learn about sex 
from their school or peers. Research from the National Campaign to 
Prevent Teen Pregnancy suggests that teens do, in fact, seek 
information and guidance from their parents. Almost 9 out of every 10 
teens (88 percent) believe it would be easier for teens to postpone 
sexual activity and avoid teen pregnancy if they were able to have more 
open, honest conversations about these topics with their parents.

                   strengthening abstinence education

    The President's fiscal year 2005 budget contains a new initiative 
targeted to helping youth make responsible choices. This initiative 
provides for the following:
  --Invest substantial new resources in abstinence education programs 
        including Community-Based Abstinence Education and Adolescent 
        Family Life programs;
  --Development of scientifically-based standards for model abstinence 
        education curricula;
  --Review of all federal programming for youth addressing teen 
        pregnancy prevention, family planning, STD and HIV/AIDS 
        preventions and abstinence with the goal of implementing a 
        coherent policy framework for all programs that recognize the 
        primary importance of delaying onset of sexual activity among 
        teens; and
  --Launch a public education campaign to help parents teach and 
        support abstinence with their children.
    I am going to focus my testimony on ACF's role in this new 
Presidential initiative. Specifically, the ACF fiscal year 2005 budget 
includes significant funding for community and State abstinence 
education programs and improves these programs by fostering linkages 
with existing efforts to promote comprehensive, positive youth 
development. In fact, the budget request would more than double the 
funding for the Community-Based Abstinence Education program.
    The Community-Based Abstinence Education Program provides grants to 
public and private entities for development and implementation of 
abstinence education programs for adolescents, ages 12 through 18, in 
communities nationwide. These programs are unique in that their entire 
focus is to educate young people and create an environment within 
communities that supports teen decisions to postpone sexual activity 
until marriage. Grantees include public and private entities such as 
community-based and faith-based organizations, hospitals, health 
centers, school systems and other youth services agencies. The 
President's fiscal year 2005 budget requests $186.4 million in funding 
for this abstinence program, $111.9 million above fiscal year 2004 
funding. This influx of funding will broaden the availability of 
abstinence education for adolescents and support up to 440 grants (an 
additional 278 grants over fiscal year 2004 levels) to educate 
adolescents and parents about the risks associated with early sexual 
activity and provide the tools needed to help teens make responsible 
choices.
    Erie County Pennsylvania's Abstinence Advantage Program (AAP) 
offers a good example of the kinds of activities these funds will 
support. AAP uses nationally recognized curricula and programs with 
schools and organizations to direct teens toward abstinence, healthy 
relationships, and successful marriages and futures.
    The President's budget also supports the reauthorization of the 
Abstinence Education to States program created under the Personal 
Responsibility and Work Opportunity Reconciliation Act of 1996. This 
program provides $50 million each year to enable States to provide 
abstinence education, and at the option of the State, mentoring, 
counseling, and adult supervision to promote abstinence from sexual 
activity, with a focus on those groups that are most likely to bear 
children out-of-wedlock. These funds are allocated to States, who 
apply, according to a pro-rata method based on a ratio of the number of 
low-income children in each State to the total of all low-income 
children in all States. States are required to match every four dollars 
they receive of federal abstinence education funds with three non-
federal dollars.
    In conjunction with these requests, the President's budget proposes 
to shift responsibility for these programs from the Health Resources 
and Services Administration (HRSA) to the Administration for Children 
and Families. Secretary Thompson and I agree that ACF is well suited to 
administer these programs and the budget request provides 
appropriations language to support this shift.
    The programs would be relocated to ACF's Family and Youth Services 
Bureau (FYSB), providing linkages to community-based and faith-based 
youth development programs. FYSB's programs connect youth to caring 
adults, thereby empowering youth in their schools and communities. 
These programs are particularly effective in protecting young people 
not only against early sexual behavior but also from drugs, alcohol, 
tobacco and violence. We believe the shift in responsibility is 
important in providing a holistic approach to combating these problems.
    Positive youth development provides youth with healthy messages 
about their bodies, their behaviors and their interactions; safe and 
structured places for teens to study, recreate, and socialize; positive 
adult role models as parents, mentors, coachers, or community leaders; 
skill development in literacy, competence, work readiness and social 
skills; and opportunities to serve others and build self-esteem. Youth 
who are involved with these types of structured activities that build 
competencies and self-confidence are more likely to abstain from sexual 
activity.
    While HRSA has provided a strong focus on abstinence education, the 
shift to a human services agency will build on the progress made with a 
focus on positive youth development. At the same time, the Department 
will continue its scientific inquiry into what works best to further 
support the success of our comprehensive youth development efforts.

                               conclusion

    In closing, I would like to thank you for focusing on improving the 
lives of our young people and considering how the Federal government 
can help parents, schools, communities and States make a long-term 
difference in the lives of our nation's youth. As Secretary Thompson 
said, ``Three quarters of American youth are making safe sensible 
choices for their lives, and the remaining quarter may be at risk, but 
they certainly are not lost.'' We need to do everything we can to reach 
these vulnerable young people and provide them a vehicle on the path to 
success. I look forward to working with your committee to make the 
fiscal year 2005 budget request become a reality.
    I would be pleased to answer any questions you may have.

    Senator Specter. Thank you very much, Dr. Horn, for that 
testimony. I think it appropriate to note exactly what 
President Bush said in the State of the Union Speech when he 
announced his intention to increase funding. He said, quote, to 
encourage right choices we must be willing to confront the 
dangers young people face, even when they are difficult to talk 
about. Each year about 3 million teenagers contract sexually 
transmitted diseases that can harm them or kill them or prevent 
them from ever becoming parents. In my budget, this is the 
President speaking, I propose a grassroots campaign to help 
inform families about these medical risks. We will double 
Federal funding for abstinence programs so schools can teach 
this fact of life. Abstinence for young people is the only 
certain way to avoid sexually transmitted diseases, closed 
quote.
    Dr. Horn, I would like your own view about the statistics 
which the Center for Disease Control has stated, hard to know 
exactly where the statistics come from, but I think they are 
rather, well, surprising statistics. The CDC has found that 46 
percent of high school students had sexual intercourse. How do 
you react to that statistic and the seriousness of the 
statistic if it is correct or close to being correct?
    Dr. Horn. Well, it's 46 percent too many. And it's because 
we know there are lots of negative consequences associated with 
a young person becoming sexually active.
    First of all, we have the highest teen pregnancy rate of 
any industrialized nation in the world. Second, we know that 3 
million teenagers this year will be infected with a sexually 
transmitted disease. That's 10,000 new cases of sexually 
transmitted diseases among young people every day. And about 
half of those sexually transmitted diseases are viral 
infections that will never, ever go away.
    In addition to that, we know that there is a lot of 
emotional heartache that comes as a consequence of this early 
sexual activity. In fact, according to the National Campaign 
Preventing Pregnancies, about 63 percent of 12- to 17-year-olds 
who have had sexual intercourse regret having had it and wished 
they had waited until later.
    So by encouraging teens to choose abstinence as the 
healthiest choice, we ought to see a significant reduction in 
teen pregnancies, in teenagers acquiring sexually transmitted 
diseases. But even as importantly are those, we also should see 
a decrease in the amount of emotional heartache that early 
sexual activity can bring to teens.
    Senator Specter. Dr. Horn, focus on the statistic of 46 
percent reputedly high school students, reputedly 46 percent of 
high school students who had sexual intercourse. Does that 
sound like a realistic accurate figure to you?
    Dr. Horn. Unfortunately, it does. And if you look at 
juniors and seniors, the percentage is even higher. The 46 
percent figure is for all high school students. By the time 
they are seniors in high school it may be as much as 72 percent 
have had sexual intercourse.
    We have a culture unfortunately today that is on the side 
of self-destruction, not on the side of self-restraint. And 
what we ought to do and what abstinence education programs do 
is encourage kids to make the healthiest choice for themselves 
that preserves the most positive future for them.
    Senator Specter. Well, when you talk about self-destruction 
versus self-restraint, beyond abstinence education, is there 
anything that can be done in a constructive way to develop a 
culture which would reduce at least, if not eliminate, the 
incentives, all of the glamour which is attached to sexual 
activity that you see not only on cable television but you see 
in the advertisements if you pick up the Sunday newspaper. Any 
way to deal with that beyond asking the publishers to utilize 
some self-restraint?
    Dr. Horn. Well, two things. First of all, one of the things 
that we know is that, contrary to what most parents believe, 
the number one source that teenagers themselves tell us 
influences their decisions about whether or not to engage in 
high risk behaviors, including early sexual activity, are 
parents themselves. They are hungry for the parents to monitor 
them, counsel them, provide them with good information. And yet 
most parents believe it is the peers, it is the teenager's 
friends which are most influential. If you ask teens 
themselves, survey after survey shows it's actually the parents 
that is most influential.
    So one of the things that the President would like to do is 
to have a public awareness campaign targeted to parents, so 
that the parents can be empowered to, in fact, fulfill that 
role of being a good teacher and mentor to their own children 
and encourage them to make a choice towards sexual abstinence.
    The second thing is that the President has asked that at 
least two of the abstinence programs be transferred into the 
Administration on Children and Families.
    The reason for that is we want to integrate the abstinence 
education programs into the broader array of positive youth 
development initiatives, which we have been developing in 
Administration on Children and Families.
    One of the things that positive youth development tells us 
is that it's not enough just to tell kids to say no to high 
risk behaviors. It's equally, perhaps even more important, to 
tell them what to say yes to. What positive youth development 
talks about is helping kids say yes to good positive 
relationship with their parents, say yes to good positive 
relationships to their schools and their teachers in their 
schools, and to engage them in positive community activities 
that empower them to do positive things, and occupy them in 
positive activities so they are less likely to become engaged 
in the kinds of high risk behaviors, not just sexual activity, 
but also less likely to be engaged in drug use, alcohol use, 
tobacco use, or criminal activity.
    So what we would like to do is integrate abstinence 
education in these broader frames of positive youth development 
so that kids know what to say yes to, not just what to say no 
to.
    Senator Specter. Dr. Horn, there will be parents watching 
this hearing on Pennsylvania Cable Network, and I thank PCN for 
carrying the show. Maybe even some teenagers watching it, too, 
maybe even listening to you.
    At what age would you recommend that the parents sit down 
with their children and have a heart to heart talk about more 
than the birds and bees but about the problems related to 
premarital sex?
    Dr. Horn. I think that as a child psychologist, it would be 
a mistake for parents to believe that this is about the talk. 
Often parents think that, you know, at some point along the 
line of their child's development they will need to sit down 
and have the talk about sex, about the birds and the bees.
    Senator Specter. When?
    Dr. Horn. And I think that's a mistake. I think that it's 
much more important that parents understand that this is 
something they should be engaging their children in 
developmentally appropriate ways from very early ages in their 
lives.
    Senator Specter. When you talk about an early age, I think 
given your background and expertise, parents hearing your words 
would be interested in something more specific.
    Dr. Horn. I would say that they should start as soon as 
their child is elementary school, talking to them about human 
sexuality in developmentally appropriate ways. That also gives 
a consistent message throughout their development that the 
importance of waiting----
    Senator Specter. Have you mentioned a starting age yet?
    Dr. Horn. Somewhere in elementary school I think it's 
important for parents to start talking to their kids about 
this, if not even before. I think this should be a natural part 
of the conversation that parents have with their children about 
all sorts of things.
    Kids are curious. They start to ask questions. Where do 
babies come from. Well, when they ask that question, you ought 
to give them an answer in a developmentally appropriate way. 
Whether that question comes from a 3-year-old, an 8-year-old, 
or 15-year-old, you have a different conversation. So what 
parents ought to do is to look, hear the questions that their 
children are asking of them, and then respond to them in 
developmentally appropriate ways.
    This should not be boiled down to a single talk or even a 
couple of single talks, but rather it should be a piece of what 
parents do in their course of bringing up their kids, 
including, by the way, insuring that young children are 
shielded from over-sexualized messages that come through the 
media. I think it's a parent's responsibility to make sure that 
their child is not exposed to developmentally inappropriate 
messages through the media, through television or the movies.
    Unfortunately, there are times today where you think you 
are providing your child with a non-sexualized viewing 
experience.
    For example, watching the super bowl and what do you get. 
Unfortunately, today you get messages that are highly 
sexualized, whether or not the now famous brassiere snapping 
occurred. Much of what was happening during half-time was 
completely inappropriate for young people to be watching. I 
know I wouldn't have wanted my 6-, 7-, 8-, or 9-year-old to be 
watching the kinds of very suggestive dancing that was going on 
during half-time. So parents need to get control of this.
    Senator Specter. Dr. Horn, there is a very serious problem 
as we all know with teenage suicides. Recently our subcommittee 
designated or earmarked to a small county in Pennsylvania, 
Potter County. Happens to be the home of Mr. Tom Bowman, who is 
my expert who has developed a great many of these abstinence 
training programs, some 34 across the Commonwealth of 
Pennsylvania.
    To what extent, if at all, are teen suicides related to 
pregnancies, unintended pregnancies, the fear of unintended 
pregnancies, or the sort of factors which are a part of 
premarital sex?
    Dr. Horn. There is some evidence to suggest an association 
between early sexual activity and depression. There is some 
evidence to suggest that depression may be as high as three 
times more likely, particularly for girls, when you engage in 
early sexual activity. And since depression is the driver of 
suicide, then it's not illogical to assume that there may be 
some connection between early sexual activity and suicide.
    This is an area that, obviously, we can't do randomized 
controlled studies on, and so we have to deal with 
correlational analyses. And there is all sorts of selection 
artifacts and so forth.
    But if I were counseling a parent, and I used to be a 
counselor, I used to do family therapy and work with parents, 
one of the things if they were to ask me, how can I help 
protect my children as they grow older from depression and teen 
suicide, one of the things that I would say is have a good 
strong relationship with your kids, encourage good open 
communication with your children and help them avoid high risk 
behaviors, including early sexual activity.
    Senator Specter. Dr. Horn, there are some who say that 
abstinence-only education is in the wrong direction, that the 
urging of abstinence is fine, but there ought to be a joinder 
with it on the availability of contraceptives.
    What is your view of the value of abstinence-only education 
or how would you evaluate those who say that you really 
shouldn't rely solely but ought to have instruction 
simultaneously with respect to contraceptives?
    Dr. Horn. Well, I'm worried as a matter of prevention about 
the double message that so-called abstinence plus education 
programs provide to young people. When you are talking to a 9- 
to 14-year-old, which is the primary target of abstinence 
education programs, when you are talking with a child of that 
age who is not yet engaged in sexual activity, if you say, 
well, we would like you to not do it, but you know, just in 
case, let's give you a lot of instruction on how to use 
contraception, the real message that the young person gets is 
we don't expect you to actually embrace an abstinence goal but 
we really do expect that you are going to be sexually active at 
an early age and that's why we are going to provide you with 
the rest of this information.
    The administration has not asked for a reduction in 
contraceptive programs and services. And there are, in fact, 
contraceptive services available to both adults and teens 
through the Federal Government. But as a matter of prevention, 
it seems to me as a child psychologist that we ought to give a 
clear message, we ought to give a clear message unencumbered by 
this idea that we unfortunately give our kids when we also show 
them contraceptive at a young age that suggests that they are 
going to become sexually active.
    Senator Specter. So the Bush administration has maintained 
really a two-front approach, one, abstinence-only education, 
but at the same time other programs available as you say on 
contraception.
    Dr. Horn. For the sexually active. And I think there is a 
difference between prevention and intervention on this issue. 
Prevention ought to be clear about what is our goal, what's our 
goal. Our goal is for young people to be sexually abstinent. 
Let's not muddy that message by providing them all sorts of 
other information about contraception, and particularly 
practice the use of contraception, which a lot of abstinence 
programs do. That then provides with very much a double 
message.
    Let's again remind ourselves, abstinence is 100 percent 
effective, contraception is not. Contraception is not 100 
percent effective, but for some----
    Senator Specter. Could you put a percentage on the 
effectiveness of contraception?
    Dr. Horn. On the sexually transmitted disease. Certainly it 
provides risk reduction when it comes to HIV/AIDS, for example, 
when it comes to Syphilis, for example. But there is no 
evidence, for example, that condoms provide any protection to 
the transmission of human papilloma virus or HPV.
    Human papilloma virus is one of the fastest growing 
sexually transmitted diseases in America. It is also linked 
very strongly to cervical cancer in women. In fact, 13,000 
American women are diagnosed with cervical cancer every year. 
There are 3,000 of them--3,000 or 4,000 of them will die from 
cervical cancer each year. That is about the same number of 
women who will die from HIV/AIDS. And condoms provide no 
protection, none, to the transmission of human papilloma virus.
    Senator Specter. Would you define human papilloma virus a 
little more?
    Dr. Horn. It's a viral infection. I'm a child psychologist, 
not a medical doctor. But it is a viral infection which can be 
spread through sexual contact.
    Senator Specter. Even with the use of a condom?
    Dr. Horn. Condoms apparently--there is no scientific 
evidence. The CDC just issued a report very recently suggesting 
that there is no scientific evidence that suggests a 
significant reduction in risk of transmission of HPV as a 
result of condoms.
    In addition, condoms provide a risk reduction only if you 
use them 100 percent of the time with 100 percent of the 
partners that you engage in and you use it 100 percent of the 
time exactly the way they are supposed to be used. 
Unfortunately, that's a standard that particularly young people 
don't live up to.
    So when we tell them, look, use a condom and everything 
will be fine, that's a message that unfortunately I believe and 
science suggests can put a lot of young people at risk. And so 
let's give them the truth about condoms and let's tell them 
that there are some sexually transmitted diseases for which 
there is no hard evidence that it reduces substantially the 
risk of transmission and particularly true for human papilloma.
    Senator Specter. Dr. Horn, what statistics or studies are 
available to measure the effectiveness of abstinence-only 
education?
    Dr. Horn. There are about 10 studies that have been 
published that look at the effectiveness.
    Senator Specter. What do those studies show?
    Dr. Horn. It depends on the studies. Some look at 
abstinence pledges, for example. There is this longitudinal 
study called Ab Health that looked at the effectiveness of 
youth taking abstinence pledges and found that a youth taking 
an abstinence pledge were significantly less likely to engage 
in early sexual activity compared to those who did not. There 
are studies with varied length of follow-ups to look at both 
attitudes and behavioral change as a result of abstinence 
education.
    But abstinence itself is 100 percent effective. We don't 
have to do a study with abstinence effectiveness. It's 100 
percent effective.
    Senator Specter. I'm not talking about the effectiveness of 
abstinence. I'm talking about the effectiveness of abstinence 
education programs.
    Dr. Horn. Yes, I understand that. What we need to do is 
study the effectiveness of abstinence education programs, 
continue to study it so we can help more young people make that 
choice. But it's not as though there is this overwhelming 
voluminous research on the effectiveness of comprehensive sex 
education that shows it universally and overwhelmingly 
effective. That literature is kind of contradictory itself. And 
so we believe that we ought to study the effectiveness of both.
    Senator Specter. How do we know if we do the abstinence 
education?
    Dr. Horn. As I said, there is about 10 studies that have 
been published that show to various degrees the effectiveness 
of abstinence education. We are committed to continuing to fund 
those studies and continuing to look at the effectiveness of 
those studies.
    Senator Specter. Would you make available to the 
subcommittee those studies which you think are most relevant to 
that question?
    Dr. Horn. Pleased to do so.
    Senator Specter. Dr. Horn, thank you very, very much. Your 
testimony is very enlightening. Thank you.
    We go to the second panel, Rev. Kenneth Page, Ms. Kelly 
Lesh, Mr. Joe Fay, Dominick Urrutia, and Mr. Ronald Evans.

       STATEMENT OF REV. KENNETH PAGE, PASTOR, GREAT ISLAND 
               PRESBYTERIAN CHURCH, LOCK HAVEN, PA

    Senator Specter. The first witness on this panel is Rev. 
Kenneth Page. He's the pastor of Great Island Presbyterian 
Church in Lock Haven where he has served for 8 years, has 
Bachelor's degree from Duke, Master of Divinity from Princeton 
University. Thank you for joining us, Rev. Page. We look 
forward to your testimony.
    Rev. Page. Are you ready for it?
    Senator Specter. I'm not sure until I hear it.
    Rev. Page. I wanted to say first as august as this body is 
and as imposing as the room is, this isn't the most terrifying 
speaking engagement I've ever had. I had the honor and terror 
of being asked to speak to 80 8th grade boys this past fall on 
sexual abstinence. And that was a tough room.
    My name, as you said, is Kenneth Page. I'm the pastor of 
Great Island Presbyterian Church in Lock Haven, been a part of 
the abstinence program officially for 3 years and helping out a 
little bit longer than that. Our program in Clinton County 
reaches approximately 4,700 students in grades K through 12, 
about 2,900 of those are in grades 5 through 12.
    I want to talk a little bit about why we believe our 
program has been successful, but first I want to define what I 
mean when I say our program is successful. And that is over the 
last 8 years we've had 65 percent reduction in teen 
pregnancies.
    Why do we think we've been able to do that? First of all, 
our program is multi-faceted. We provide abstinence education 
that is meeting the needs of all ages in a lot of different 
learning styles. It includes consistent abstinence education 
across our district taught by our professional abstinence 
educator. We have motivational speakers and dramatic 
presentations and music groups who come in with the same 
message. We send newsletters to the homes of all students in 
grades 5 through 12. And we've done several programs outside of 
the school that help to enforce the message beyond what we are 
teaching in the schools. Our school board and administrators 
are very supportive of this program. This is not an adjunct to 
the school program. This is a part of the school program. We 
believe that's part of our effectiveness.
    Also we seen that students have become more open to talking 
about abstinence in front of their peers. It was my experience 
as a high school student that you didn't want to admit in front 
of a group that you were a virgin. And now students we have 
seen, and I have seen in my youth group in my church, will talk 
about that and will talk about their decision to remain 
sexually abstinent.
    Finally, we've also been able to have abstinence 
professionals train coaches and teachers and guidance 
counselors and community leaders and social service agency 
personnel from our county in abstinence education and have 
gotten their support in spreading the word around our 
community.
    The impact on our community is primarily that 65 percent 
reduction in teen pregnancies. But that's not just a number. I 
want you to think about the changed lives that that represents. 
These teenagers that have so many more opportunities in their 
lives and so much greater chance of success because they didn't 
become parents when they were teenagers. And these children 
that would have been born to parents who were not old enough to 
be good mature parents and parents who very likely would not be 
both committed to being parents. That's what that 65 percent 
number really means in human terms.
    The impact on our community as well, our agencies across 
the community have been wonderful in collaborating with our 
program. Those organizations include churches, the Clinton 
County Women Center, Communities That Care, the Penn State 
Extension, Geisinger Medical Center, Big Brother, Big Sister, 
Infant Development, and civic organizations such as AAUW and 
the Rotary Club. Both of those last two organizations have 
presented awards to the coordinator of our abstinence program 
recognizing the success of the program in Clinton County.
    Also parents around children have become connected in 
talking about abstinence. And we encourage that by sending this 
newsletter to the homes of the children in grades 5 through 12. 
That helps them to have a launching point for one of these 
conversations that Dr. Horn was talking about. It's so 
important that parents talk to their kids about abstinence.
    Also, our abstinence program has been a part of presenting 
programs to the community and to students on heroin use, which 
is a burgeoning problem in our area and other drug usage. Those 
programs are well attended. People are very eager to get good 
information and good motivation.
    We've also been training Lock Haven University health and 
physical education majors and have planned to increase that so 
that students coming out to be teachers in this area will have 
good education on abstinence and also have been able to talk 
and train professors from Lock Haven University on abstinence 
education.
    That's why we think our program has been successful and how 
we think it's been successful. But I want to also talk about 
what makes all that possible. And Keystone Central School 
District began receiving funding for abstinence education in 
the spring of 1997 with a 5-year abstinence education and 
related services grant. Those are funds that you, Senator 
Specter, were very instrumental in providing.
    Senator Specter. I'm sorry. I didn't hear that.
    Rev. Page. I said those are funds that you, Senator 
Specter, were very instrumental in providing.
    Senator Specter. I heard it. I just wanted to have it 
repeated.
                           PREPARED STATEMENT

    Rev. Page. In July 2002 Keystone Central School District 
received a 3-year Special Projects of Regional and National 
Significant Community-Based Abstinence Education Grant. It's a 
mouthful. But that is federally funded national competitive 
grant that we received. For the last 2 years our program has 
received $78,487 each year through funding again that you were 
instrumental in providing for abstinence education. We want to 
thank you for that commitment to this program. And we want to 
tell you we desperately need more funds to continue this vital 
program for our community. Thank you for this opportunity.
    [The statement follows:]

                Prepared Statement of Rev. Kenneth Page

    My name is Kenneth Pace and I am the Pastor of Great Island 
Presbyterian Church in Lock Haven. I have worked with the Abstinence 
Program in Keystone Central School District for 3 years. This program 
reaches approximately 4,700 students in grades Kindergarten through 
12th grade each year, specifically approximately 2,900 in grades 5 
through 12. The program has been successful for the following reasons:
    1. Teen pregnancies have been reduced by 65 percent at the present 
time.
    2. The program is multi-faceted, providing abstinence education 
that meets the needs of all ages and their academic levels. This 
includes consistent abstinence education across the district taught by 
a hired abstinence educator, motivational speakers and dramatic 
presentations, newsletters to all homes of students in grades 5 thru 12 
and programs outside of school that help to enforce the abstinence 
message that is taught in school.
    3. Our School Board and administrators have been very supportive.
    4. Students have become much more open and willing to talk about 
abstinence in front of their peers.
    5. Coaches, teachers, guidance counselors, community leaders and 
agency personnel have been able to be trained by abstinence 
professionals and have been instrumental in spreading the word to the 
remainder of the community.
    The Impact on our community:
    1. Reduction in teen pregnancies.
    2. Agencies have been wonderful in collaborating with our district 
program when appropriate and necessary. These organizations include 
churches, the Clinton County Women's' Center, Communities That Care, 
Penn State Extension, Geisinger Medical Center, Big-Brother Big Sister, 
Infant Development, and civic organizations such as the American 
Association of University Women and the Rotary Club. Both the former 
two organizations have presented awards to the coordinator of the 
abstinence program for its success.
    3. T.V. ads, radio spots and billboards have been excellent in 
creating awareness of our abstinence program.
    4. Parents and their children have been connected by way of a 
newsletter from the abstinence program, giving parents tips on how to 
talk to their children about sexuality and remaining abstinent until 
marriage. Parents can also request literature mentioned in the 
newsletters from the abstinence office.
    5. The program has presented programs to the community on heroin 
and other drug usage which have been well attended.
    6. Lock Haven University's Health and Physical Education Department 
has requested our coordinator to speak to future Health and Physical 
Education Majors on how to teach abstinence to their future students. 
Professors from LHU have also received professional abstinence 
training.
    Keystone Central School District began receiving funding for 
abstinence programming in the spring of 1997 with the 5-year abstinence 
Education and Related Services Grant Funds that Senator Specter was 
instrumental in providing, beginning in July of 2002. KCSD received a 
3-year Special Projects of Regional and National Significance 
Community-Based Abstinence Education Grant that is a federally-funded 
nationally competitive grant. For the last 2 years, they have received 
$78,487 each year through funding that Senator Specter has specifically 
provided for abstinence education. We desperately need continuance of 
funding to provide this vital programming for our students and 
community. We would especially like to thank Senator Specter for his 
work in providing these funds.

    Senator Specter. Thank you very much, Rev. Page, for your 
testimony.

       STATEMENT OF DOMINICK URRUTIA, PROGRAM COODINATOR, 
                 ABSTINENCE IS BEST PROGRAM

    Senator Specter. We now turn to Ms. Dominick Urrutia who 
teaches kindergarten at the Ronald Brown Charter School in 
Harrisburg and is the program coordinator for the Abstinence is 
BEST program. B.A. degree and master's in teaching from Hampton 
University. Thank you for joining us, and the floor is yours.
    Ms. Urrutia. Good afternoon. My name is Dominique Urrutia 
and I am the program coordinator for the Abstinence BEST 
program. BEST stands for Building Educated Successful Teens. 
The program is managed by Diakon Lutheran Social Ministries 
Life Family Services Counseling Department. We would like to 
thank you, Senator Specter, because you are responsible for 
contributing to the $136,000 grant that we are using to make 
the program go.
    We are currently servicing 106 students ranging from ages 
12 through 18. By incorporating the positives from the young 
hip culture of today with an abstinence until married center 
curricula, we have designed a fun, educational and interactive 
professionals that will teach participants how to build a 
successful and healthier future by abstaining from having sex 
and other risky behaviors.
    The program consists of adult facilitators as well as peer 
educators. The peer educators deliver instruction in the format 
of interactive rap sessions. Rap sessions are designed to 
positively influence and better equip our youth with the tools 
they need to overcome peer and social pressures to engage in 
other risk behaviors as well as sexual intercourse.
    The program is broken down into eight interactive rap 
sessions. Session 1 is sex, emotions, and self-respect; session 
2, sex, alcohol, and respect; session 3, sex, STDs, and 
honesty; session 4, sex, pregnancy, and responsibility; session 
5, HIV and AIDS; session 6, choosing the best path; session 7, 
setting limits and self-discipline; and session 8, resisting 
the pressure.
    In addition to speaking to the children, refreshments are 
served at every session. And we do serve pizza at least twice a 
month.
    There are four games that we use with the curriculum, STD 
roulette, rock around the clock, drugs are losing game, and sex 
and consequences. The information that's given during the 
sessions is outstanding and the feedback is always positive.
    I have three testimonies from different participants we've 
had throughout the course of the sessions that I would like to 
share. We have a small container, which is called a rap box, 
that is there at every session and students are able to put in 
confidential questions or give their feedback. And I'm going to 
read the first one.
    I learned a lot of things we think prevent HIV and other 
sexually transmitted diseases that just might not work. I 
learned how some people have to live with HIV or AIDS and STDs, 
but having sex is not the only way you can get disease. You can 
get a disease by sharing needles, too. I also got to see what 
it looks like to have diseases. I also got to learn a lot about 
relationships and how bad dudes treat chicks and also date 
rape. I learned that if you sleep with somebody, you should 
think about all the people they have slept with. The most 
important thing that I have learned is that you can either have 
sex and worry or have sex and get checked constantly to feed 
into someone's pressure, or you can practice abstinence. I like 
the program a lot. I got a lot out of it. And if I had to 
change something about the program or the staff, I would not 
change a thing.
    The second testimony, I like the program a lot. I learned 
things that I never knew like everything that enters your body 
can affect your baby. I learned that you can get STDs without 
having sex but mainly because of having sex. Condoms don't 
protect 100 percent like you think they would. Condoms are not 
100 percent sure and even wearing a condom you can get an STD 
by the top areas of your privates rubbing together. You can't 
get AIDs from drinking off another or touching another. AIDS is 
spread by breast milk, open cuts, and having oral or anal sex. 
You cannot get rid of AIDS. HIV does not mean you are fully 
infected. It is a stage before you get AIDS. The best way not 
to get anything is to practice abstinence. Abstinence is not 
having sex at all, to wait until you are married. Someone who 
has AIDS does not 100 percent to pass it onto their unborn 
baby. I still don't understand why this is true. Drinking and 
smoking can cause physical and mental problems to the unborn 
baby. Most people who have sex don't think about how many 
people their partner slept with, and they do not realize that 
if they slept with only three people it is really like sleeping 
with five people altogether. A person may look clean on the 
outside, but you don't know about their inside. I love this 
group. I really appreciate you coming and taking time out of 
your busy schedule to teach us these important things for our 
lives. I've learned a lot about the commercials that don't tell 
you about the consequences that may occur from having sex. I 
learned how to say no to having sex even if I am pressured. 
I've learned that what can happen even in your life by just 
having sex. I decided the best thing for me is abstinence. Your 
body may want to have sex but your mind should be telling you 
no. P.S. You made a difference in our lives. Thank you.
    The last one, I just wanted to thank you for having this 
program. Because I came here I was never aware of all the 
consequences involved in having sex. Because of your program it 
made me think twice. I did have sexual contact with a person 
that I have known for 1\1/2\ years. After watching the movie on 
STDs, I asked the nurse to get me a test. I have chlamydia. 
This person I had sex with told me he was clean and now he's in 
Washington D.C. probably infecting another girl. I've come to 
realize that no matter how long you've known a person you can 
still be cold hearted and not tell them that you have 
something. They tell you that they care about you or that they 
love you, but do they love you enough to tell you they have an 
STD. I didn't know. But I kept telling myself I should have 
known. But what I would like to say you can never tell a person 
what they have by just looking at them. Now on my third day of 
taking these pills that are blue, I have to take one in the 
morning and one at night, I hate taking pills. Having chlamydia 
makes me realize a lot of things now. I've asked the doctor, 
should they give me an HIV test. I should be getting that soon. 
You guys should keep coming so that others like myself would be 
more educated. Thank you for changing my insight on life. 
Because this is a new chapter in my life, I will unfold it and 
begin to live a more clean and responsible life. I guess for 
every action there really is a consequence.
    That would be the end of our testimonies from the children. 
We've completed sessions at Middletown High School, Abrasas, 
Schaffner, Antioch Tabernacle, Redeeming Life Church, the 
Wilderness School, and Yellow Breeches. Thank you.

         STATEMENT OF JOE FAY, EXECUTIVE DIRECTOR, PENNSYLVANIA 
                 COALITION TO PREVENT TEEN PREGNANCY

    Senator Specter. Thank you very much. Next witness is Joe 
Fay, executive director of the Pennsylvania Coalition to 
Prevent Teen Pregnancy. Twenty-five years experience as a 
health and sexuality educator, graduate of Gettysburg College, 
Master's degree in psychology from University of Richmond. 
Thank you for being with us, Mr. Fay. The floor is yours.
    Mr. Fay. Thank you, Senator Specter, for the opportunity to 
be here today. Pennsylvania Coalition to Prevent Teen Pregnancy 
is the only statewide group that is concerned solely with the 
issue of teen pregnancy prevention. We provide statewide 
leadership on the issue and support for community efforts. We 
embrace abstinence and contraception as legitimate strategies.
    My organization is in favor of teaching young people about 
abstinence. It should clearly be the primary message we give to 
teenagers. It is the only method of pregnancy prevention that 
is 100 percent effective. I myself am a health and sexuality 
educator and a parent of two teenage children. I have spent a 
great deal of time teaching young people the skills of 
abstinence. I have little doubt that the programs we're hearing 
about today are doing many good things for kids. But are they 
reducing teen pregnancy? If so, where is the evidence. As 
simply as possible, I would like to explain why my organization 
opposes Federal funding for abstinence-only until marriage 
education.
    First, major medical and health organizations in the United 
States agree that it is not good public health policy to 
actively deprive young people of information that helps prevent 
pregnancy and disease. To do so implies that we believe that 
young people cannot handle information about condoms and other 
forms of birth control. But the fact is that teens can handle 
this information when presented in an age appropriate fashion. 
The evidence clearly shows that teaching teens about birth 
control does not increase sexual activity.
    Second, abstinence-only programs do not reflect the views 
or the behavior of most Americans. Most parents of teens reject 
the view that talking about abstinence and birth control sends 
a mixed message. Surveys show most parents believe that teens 
should wait at least until they are out of high school to have 
intercourse but still believe that teens should have 
contraceptive education and access to birth control. Our 
programs would have a better chance of success if they 
reflected this cultural consensus.
    Third, some abstinence programs are fear based, factually 
inaccurate, and use religion to promote their message. I don't 
think that anyone intends to do harm. But in today's world who 
can doubt that our zeal to do good can have unintended 
consequences. In my written testimony I elaborate on this point 
with examples.
    Fourth and most importantly, there is an absence of solid 
research documenting the effectiveness of abstinence-only until 
marriage education. Minnesota recently became the latest State 
to report their 5-year $5 million abstinence-only program 
failed to reduce sexual activity. We should be spending our 
very scarce taxpayer dollars on proven programs. Put simply, 
what works is teaching young people to wait to have sex, but 
also teaching them how to use contraception if they don't. 
Decades of peer-reviewed research shows such programs delay 
intercourse and improved contraceptive use among sexually 
active teens. These effective programs have been summarized in 
numerous reports disseminated by variety of reputable 
organizations, including the National Campaign to Prevent Teen 
Pregnancy, Advocate for Youth, and the Surgeon General's Call 
to Action to Promote Sexual Health.
    Finally, several years ago Pennsylvania completed an 
evaluation of its abstinence-only program. However, the Ridge 
administration did not release the results. I do not know what 
the Rendell administration plans to do. But I ask you, Senator 
Specter, to join with our coalition in requesting that the 
public be allowed to see this study. Regardless of what the 
results show, the report will contain valuable information that 
will enable educators to continue to improve their programs. 
The taxpayers paid for these abstinence programs and they pay 
for the evaluation. They deserve to see the results.
    To carry out a truly fair and impartial evaluation, we 
should conduct both abstinence-only and comprehensive sex ed 
programs and compare the results. Why not fund such a pilot 
program to truly determine the approach that is most effective 
here in Pennsylvania.

                           PREPARED STATEMENT

    In conclusion, I thank you for your desire to improve the 
sexual health of teens and reduce the negative consequences of 
sexual behavior. The Pennsylvania Coalition to Prevent Teen 
Pregnancy looks forward to collaborating with you on this 
important issue.
    [The statement follows:]

                     Prepared Statement of Joe Fay

    Thank you, Senator Specter, for the opportunity to be here today. 
My name is Joe Fay. I'm the Executive Director of the Pennsylvania 
Coalition to Prevent Teen Pregnancy. Our coalition is the only 
statewide group that is concerned solely with the issue of teen 
pregnancy prevention. We provide statewide leadership on the issue and 
support for community efforts. We embrace abstinence and contraception 
as legitimate strategies.
    Over the weekend, I visited my 91 year-old mother, who is in a 
nursing home. I asked her if she knows who Arlen Specter is. She said, 
``Of course. I've seen his ads on TV. He wants teenagers to abstain.'' 
I told her Senator Specter was holding hearings on Monday in Harrisburg 
on that very subject and that I would be the lone dissenting speaker. 
She said to me with surprise, ``You're against abstinence?''
    So now I'm going to explain to you what I first had to explain to 
my own mother. My organization is in favor of teaching young people 
about abstinence. It should clearly be the primary message we give, 
especially to children aged 9-14. I myself am a health and sexuality 
educator and have spent a great deal of time teaching young people the 
skills of abstinence. I have little doubt that the programs we're 
hearing about today are doing many good things for kids. But are they 
reducing teen pregnancy? If so, where is the evidence?
    Of the programs here today, I am most familiar with the Lancaster 
McCaskey IMPACT program. I have known their leader, Pat Kinsey, for 
years. I have worked with her on a variety of projects. I would be 
happy to have my own children enrolled in her program. The young people 
who are part of her program are very blessed to have Pat in their 
lives, giving them guidance, support, education, and a sense of 
belonging. Pat and I agree on most things, but not on the issue of 
comprehensive sexuality education for teens. As simply as possible, I 
would like to explain why my organization opposes federal funding for 
abstinence-only-until-marriage education.
    1. The major medical and health organizations in the United States 
agree that it is not good public health policy to actively deprive 
young people of information that helps prevent pregnancy and disease. 
To do so implies that we believe that young people cannot handle 
information about condoms and other forms of birth control. I know from 
my twenty years of experience conducting both abstinence and 
contraceptive education that teens can handle this information, when 
presented in an age-appropriate fashion. This is the approach that is 
used in most of Europe, where teen pregnancy rates are considerably 
lower than ours. The teens at our youth conferences make it clear every 
year that they want all of the facts.
    2. Abstinence-only programs do not reflect the views or the 
behavior of most Americans. According to the National Campaign to 
Prevent Teen Pregnancy, only 15 percent of Americans support 
abstinence-only sex education. Most parents and teens reject the view 
that talking about abstinence and birth control sends a mixed message. 
The cultural consensus in this country, according to numerous surveys, 
can be summarized by this statement: ``Teens should abstain from 
intercourse at least until they are out of high school. However, they 
should also be educated about contraception and should always use it if 
they are sexually active.'' Our programs would have a better chance of 
success if they reflected this cultural consensus.
    3. Some abstinence-only programs are fear-based, factually 
inaccurate, and use religion to promote their message. I don't think 
that anyone intends to do anything harmful, but who can doubt in 
today's world that our zeal to do good can have unintended 
consequences? I give examples from my own experience at the end of this 
article.
    4. Most importantly, there is an absence of solid research 
documenting the effectiveness of abstinence-only-until-marriage 
education. Minnesota recently became the latest state to report that 
their five year, $5 million abstinence-only program failed to reduce 
sexual activity. We should be spending our scarce taxpayer dollars on 
proven programs. Put simply, what works is teaching young people to 
wait to have sex but also teaching them how to use contraception if 
they don't. Decades of peer-reviewed research shows such programs delay 
intercourse and improve contraceptive use among sexually active teens. 
These effective approaches have been summarized in numerous reports 
disseminated by a variety of reputable organizations, including the 
National Campaign to Prevent Teen Pregnancy, Advocates for Youth, and, 
most importantly, The Surgeon General's Call to Action to Promote 
Sexual Health and Responsible Sexual Behavior, 2001.
    Pennsylvania completed an evaluation of its abstinence-only program 
several years ago, but the Ridge Administration did not release the 
results. I do not know what the Rendell Administration plans to do, but 
I ask you to join with the PCPTP in requesting that the public be 
allowed to see the study. Regardless of what the results show, as an 
educator I can assure you that the report will contain valuable 
information that will enable educators to continue to improve their 
programs. Furthermore, the taxpayers paid for these abstinence 
programs, and they paid for the evaluation. They deserve to see the 
results.
    To carry out a truly fair and impartial evaluation, we should 
conduct both abstinence-only and comprehensive programs and compare the 
results. Why not fund such a pilot program to truly determine the 
approach that is most effective here in Pennsylvania? The PCPTP, 
through our connections with university researchers and with twenty-
three local coalitions, would be willing to work with you on this 
project.
    For the written record, I would like to focus my additional 
comments on a question of concern to us all. Given the reality that 
abstinence-only programs will continue to be funded, how can we make 
these programs as good as they can be? How can they be conducted in a 
way that is healthy for young people?
    As someone who has conducted abstinence programs and who has also 
spent many hours at conferences listening to different views and 
learning about other people's programs, it is clear to me that there 
are good methods of teaching abstinence and there are bad methods. My 
friend Mary Jo Podgurski, our Board President and a former recipient of 
abstinence funding, has an excellent rule in this regard. She says, 
``First, do no harm.'' We should all try our best to ensure that 
abstinence programs are not harmful in any way to young people. Here 
are a few approaches sometimes used in abstinence-only-until-marriage 
programs which, in my opinion, are harmful or at least confusing. 1. 
The use of fear and guilt to promote abstinence. This is my biggest 
concern. In a group of 9-14 year olds, it is highly likely that those 
who have already had intercourse did not do so by choice. Most likely, 
it was the result of physical or psychological coercion. This is what 
the research tells us. The last thing that these young people need is 
for someone to come into their classroom and lay a guilt trip on them. 
Activities that compare nonvirgins to half-eaten cookies, chewed pieces 
of gum, or dirty drinking glasses convey a message that if you've had 
intercourse, you are no longer whole. You are used, dirty, and 
certainly less desirable than your virginal peers. Even the term 
``secondary virginity,'' so popular among many, implies a second-class 
status. We know from research that low self-esteem is correlated with 
risky sexual behavior. So the guilt engendered by these activities 
could actually be increasing the sexual acting-out that is often 
typical of sexual abuse victims. 2. The dissemination of misinformation 
about birth control. We must attempt to ensure that these programs do 
not exaggerate the failure rates of condoms in order to scare teens out 
of having sex. There are well-funded groups telling teens that condoms 
have microscopic holes which allow HIV to pass through. For example, 
when I worked for the York City Health Bureau, we hired researchers 
from Penn State to conduct a thorough evaluation of a local middle 
school's abstinence-only program that was taught by an organization 
affiliated with the Catholic Church. The results showed positive 
changes in attitudes about abstinence. However, the only statistically 
significant change in behavior was a decrease in condom use among 
sexually active teens. When we looked at the curriculum to determine 
how this could have come about, we learned that the instructor was 
showing them a video produced by James Dobson's Focus on the Family 
called ``Sex, Lies, and the Truth.'' This video clearly led children to 
believe that condoms were porous and highly unsafe. This was not one of 
the federally-funded programs. However, to what extent are these 
programs being monitored to ensure that teens are getting medically 
accurate information? 3. The use of religion to promote the abstinence-
only-until-marriage message.
    I have read about many examples of this. Several years ago at our 
annual conference, an abstinence-only peer education group (this one 
was an AERS grantee) performed a skit. The skit ended with the singing 
of a Christian hymn. How many other programs, in the privacy of their 
own communities, are using similar methods? 4. Many programs are 
unclear about how to define abstinence.
    Repeatedly, we have found in forums comprised of both professionals 
and teens that people disagree on what the word ``abstinence'' means. 
When someone says they are in favor of abstinence, my first question is 
``Abstinence from what?'' Does it mean avoiding intercourse (if so, 
which kinds?)? Or does it mean all forms of sexual activity? What about 
hugging, kissing, petting, fondling, touching genitals? What about oral 
sex? What about masturbation? Teens at our youth conferences define it 
in all sorts of ways. There is very little clarity. Many teens, for 
example, do not consider oral sex to be sex. To be effective, educators 
need to clarify these issues and be able to talk directly and 
specifically to teens about the many varieties of sexual behavior. 
Teens need to learn how to set limits and how to communicate those 
limits to a partner. All too often, especially in the public school 
setting, this does not occur. It is next to impossible to promote a 
desired behavior (e.g., abstinence) when its proponents have not 
clearly defined the term.
    These four issues are my main concern. Great strides could be made 
in improving abstinence-only programs if these four concerns are openly 
addressed. Perhaps you have already taken steps to address them. If so, 
it would be helpful for us to learn about them.
    In conclusion, I thank you for your desire to improve the sexual 
health of teens and reduce the negative consequences of sexual 
behavior. The PCPTP looks forward to collaborating with you on this 
important issue.

    Senator Specter. Thank you, Mr. Fay.

    STATEMENT OF KELLY LESH, ABSTINENCE EDUCATION SPECIAL INITIATIVE 
       COORDINATOR, HEARTBEAT COMMUNITY SERVICE, MILLERSTOWN, PA

    Senator Specter. Our next witness is Ms. Kelly Lesh, 
Abstinence Education Special Initiative coordinator for 
Heartbeat Community Services in Millerstown. She's a registered 
nurse and also works for Pinnacle Health System. Her nursing 
degree is from Lancaster General School of Nursing and 
associate's degree from Franklin and Marshall College. Thank 
you for being a witness today, Ms. Lesh. We look forward to 
your testimony.
    Ms. Lesh. Thank you, Senator, for having me. As you said, 
my name is Kelly Lesh, and I am the coordinator for the 
Abstinence Education Special Initiative for Heartbeat Community 
Services in Millerstown, Pennsylvania. I am a registered nurse 
with 18 years of experience. And a majority of my nursing 
career has been spent in maternal child health field. I've 
worked in the neonatal intensive care unit where I cared for 
critically ill premature babies and, unfortunately, a number of 
those babies were born to teen parents.
    I've also worked in a pediatric and teen clinic where teens 
would come in for birth control. One of the forms of birth 
control we did use was Depo-Provera. We did teach them also 
about condoms. But we do know that sometimes if they have Depo-
Provera and a condom is not available they will not use it 
because the real fear is the pregnancy issue. And I would have 
arguments with some of the staff that we weren't protecting 
these girls from sexually transmitted diseases, that we were 
really just giving them the okay to go out and have more casual 
frequent sex.
    The past 2 years in my nursing career I've been a community 
health educator. And one of the programs that I've had the 
opportunity to develop is a teen parenting program. And this 
program goes out to young teens who have had babies or who are 
expecting a baby, and we teach them how to love and bond with 
their child. I find it's very difficult sometimes to go out and 
teach young girls how to love and bond with their child, the 
importance of that bonding process when at this point in their 
lives some of them don't even love themselves or have even 
experienced love in their families. So it can be very 
difficult.
    I think I'm with Dr. Horn in that we need to look at 
abstinence as prevention and not an intervention. We need to 
look at it as a prevention.
    Over the years I've watched teens make the decisions to 
become sexually active, and I've seen it ruin their lives. I've 
seen teens mourn for a premature child that died, I've seen 
teens come in for treatment of STDs, and I've seen teens 
emotionally scarred for life by this decision.
    In November, I've only been active in this really for the 
past couple of months, I've had the opportunity to work at a 
whole new level. I've actually taken the coordinator position 
for the Abstinence Education Special Initiative for Heartbeat 
Community Services. And this has given me an opportunity to 
make a change in the role that I had over the past couple 
years. And hopefully, I'm hoping that I'm going to be part of 
breaking this teen cycle of teen pregnancy, disease, and 
emotional trauma.
    Heartbeat Community Services, Incorporated, offers 
abstinence education to the Perry and Juniata School Districts. 
And this is made possible by the $51,669 in grant funding that 
we've received from your committee, and we thank you for that. 
With this funding, I've been able to offer the abstinent 
curriculum, Choosing the Best, to students in the 5th grade at 
one of the school districts, two of our 6th grade classes in 
two school districts, and at four school districts we've 
offered this to complete 8th grade.
    Choosing the Best is an abstinence focused curriculum and 
it is designed to offer six to eight classroom sessions to 
students. In addition, we do offer assemblies to six of the 
school districts. And these are for grades 7 through 12. And it 
is on abstinence education. This year we're working with a 
motivational educator from Teen Aid, Incorporated. He will be 
coming to speak at the school districts in these counties.
    Also, this spring we will be doing a prom extravaganza. And 
what that is is we will have select teens from all of the 
school districts will be modeling tuxes and prom gowns. And 
during this event, we will have a guest speaker on abstinence 
and also a guest speaker on drugs, alcohol, club drugs, and 
date rape as well. During this event, we give out door prizes 
throughout the day. It's sort of motivational way to get the 
students there. And the grand prize is that we give a limo ride 
to the prom to the students that is drawn in that day. So it is 
a way to get the students out there to hear the message. And 
they sort of take charge of the whole day, hosting it. And it's 
in essence, it's something good for them to be involved in.
    The other thing is that we have also have Baby Think It 
Over dolls, which one of the school districts has used as well. 
And they have really been effective, that they really enjoyed 
using them. It's been part of their family life classes as 
well.
    The total number of students impacted by all of these 
programs each year is approximately 3,000 students in the Perry 
and Juniata School Districts. And in many of the follow-up 
evaluations that we do receive the students express that they 
are choosing abstinence because of the information that they 
received during our program. And also many of the evaluations 
do say that parents have been a big impact on their decision 
for abstinence. And I think it is truly really important that 
we start educating our parents on how to teach their children 
abstinence.
    I know that I have a 13-year-old and a 10-year-old. And 
from the time they have been little I have been telling them, 
all your decisions have consequences. If you start this at a 
young age, they will make good decisions throughout the rest of 
their life.
    I thank you for the funding and I hope that you will 
continue on this funding so we can get this important message 
out to our youth. Thank you.

    STATEMENT OF RONALD EVANS, DIRECTOR, BRIDGE YOUTH SERVICES

    Senator Specter. Thank you very much. Our final witness in 
this panel is Mr. Ronald Evans, Director of the Bridge Youth 
Services in northeastern Pennsylvania, Bachelor's degree from 
Wilkes College and Master in social work from Marywood College. 
Thank you for coming to Harrisburg today, Mr. Evans. We look 
forward to your testimony.
    Mr. Evans. Thank you very much. Again, my name is Ron 
Evans. I'm currently the director of Bridge Youth Services, 
which is a project of the Catholic Social Services of the 
Diocese of Scranton. For nearly 30 years I've been working with 
youth, developing youth serving programs. These programs 
include Big Brothers, Big Sisters, runaway and homeless youth, 
shelter programs for dependent children, parenting programs, 
and counseling programs.
    However, obviously, we're here to discuss today our Smart 
Choices program, which is an abstinence-only educational 
program, which has been funded by the Department of Health and 
Human Services, obviously, through the efforts of Senator 
Specter.
    During this time we have received over $300,000 to initiate 
and continue this program. However, as I believe you will see, 
this is a small price to pay when you consider the impact that 
I believe this type of service has on children and families. 
The Smart Choices program in Luzerne County addresses high risk 
population by going directly into the neighborhoods where 
children reside. When we were devising the program, we had the 
opportunity to even go into the schools or into the 
neighborhoods. We really believe that the after-school programs 
in the locations where they are in the neighborhoods make them 
much more conducive to working with the families and give us 
access to the parents and the children right there. A lot less 
stress to moms and dads as far as trying to find good baby-
sitting programs and things like that. They can be right there 
with their children, if need be.
    Again, the major role of the program is to lower the 
incidents of teenage pregnancies and making abstinence from 
sexual activity outside of the marriage as the expected 
standard.
    Our objectives vary in our program depending on the age 
group of the population we are serving. For our younger 
participants, increasing self-esteem is a very high priority. 
Learning to handle peer pressure, developing refusal skills, 
and improving communication and decision making skills are also 
important activities. Developing conflict management skills, 
improving parent/child communications are among our objectives, 
as well as increasing positive attitudes towards abstinence. 
Emphasizing the importance of academic achievement, as well as 
lowering drug and alcohol use, are also high priority goals 
from this program. Once again, by going on site and having 
access to parents where they are joining the children, this 
only seems to help the program along in some of its results.
    The program is presented using a very small group format. 
We average between 8 and 12 students per group with a variety 
of approaches, including lecture, presentation, and interactive 
group discussions. The abstinence-only curriculum uses various 
approaches that emphasize the use of creativity and reflective 
techniques. Coaching techniques are used to teach problem 
solving skills and model behaviors, including role playing 
utilized in demonstrating refusal skills and to help the youth 
feel more comfortable when faced with difficult choices.
    In addition to Smart Choices program, we offer the 
following supportive services to youth and their families. We 
have the curriculum on one side and then we go in on the 
counselors and our case workers and evaluate a family. We can 
offer a whole host of other services to them as we were 
mentioning earlier, sir. We will offer Big Brother Big Sister 
mentoring services, counseling programs, parenting programs. 
It's all on site. We believe being able to be there once again, 
I think is very important to stress. When you are on site with 
the families that are there, it's a lot easier to engage in 
meeting with families and their children that are there also 
and have everyone working together on the same goal.
    Our results to me do bear witness to a program such as 
this. To our knowledge, we've served well over 1,000 children 
in the past 6 years. To my knowledge, there has only been one 
incident of pregnancy by program participants during the 6-year 
program. We view this as very remarkable. Penn State University 
shows that births to teens in Pennsylvania is 3.8 percent or 
over 15,000 children. Our county does have a slightly lower 
rate of 3.4 percent. However, again, given the high risk nature 
of the developments that we're going into, Mercy Health Care, 
which sends doctors and nurses directly into the housing 
projects, do estimate the overall pregnancy rate in the housing 
projects to be close to 6 percent. So if you look at those who 
have gone through our program, we are obviously very proud of 
that. We believe very much in the program as it is set up.
    Children living in low income housing developments are at 
high risk for teenage pregnancy. Economic deprivation is proven 
risk factor in early sexual activity is compounded by the low 
neighborhood attachment due to a very transient population. 
They have management problems and poor academic performances. 
This program addresses many of the needs of over 1,000 children 
who have participated in our services during the last 6 years.
    In closing, funding earmark for preventative programs such 
as this may very well be the most significant act Congress 
makes with regard to human services. Much of the funding in 
programs that human services must perform deal with the 
immediate needs children and families are facing. Obviously, 
this is exceptionally important for us to address and cannot be 
ignored. However, funding for the programs to prevent these 
same needs are often overlooked.
    Once again, I've been doing this for nearly 30 years. It's 
hard to believe, but my age says it's true. In all my years as 
working in this field, I have found that there is far greater 
value in helping families avoid this situation than in treating 
them once they have occurred. I think preventative programs are 
exceptionally important. I hope the funding continues to be 
there.
    Senator Specter. Thank you very much. Ms. Urrutia, let's 
start with you. I find it intriguing that you are a 
kindergarten teacher at the same time you are the coordinator 
for abstinence of the BEST program. It leads me to a question. 
Does abstinence instruction start in some way as early as your 
kindergarten class?
    Ms. Urrutia. If the children ask questions as a teacher, I 
will answer them in a roundabout manner. But normally they 
don't ask any questions of that nature.
    Senator Specter. I was interested in the examples that you 
gave about students who have benefitted from abstinence 
education. What was the age range of those students?
    Ms. Urrutia. The age ranges would be 12 to 18. I know one 
of the letters that I have the child was 17. And the other two 
were anonymous. Because they are not obligated to write their 
name on the letter for feedback. It's completely optional. They 
were anonymous. But the majority of our students that we 
service are ages 15 through 18.
    Senator Specter. When you said that you are not only 
sleeping with the person, you are sleeping with all the people 
whom he or she had slept with and all the people whom they have 
slept with, et cetera, I saw a fascinating chart in one of the 
schools. Two people together on one side the person slept with 
two, and one of those had slept with four, and one had slept 
with six, and they had slept with--the number grows 
exponentially. I think that's a factor which is worth noting. 
Until I had seen that chart, that thought had not crossed my 
mind.
    Ms. Urrutia. Yes. We use a chart similar to that for our 
discussions. I believe it's session 5. And it actually shows a 
breakdown. It begins with number 1 and it goes to 15. And in 
actuality, if you sleep with 15 people, you are sleeping with 
1,037 people. And the children are really amazed by the 
breakdown. If you've had----
    Senator Specter. 1,037?
    Ms. Urrutia. Yes. If you've had more than 15 sexual 
partners, it's not on the actual handout, but they really have 
a lot of questions. And I think the program is very successful 
and the information that we give----
    Senator Specter. You teach a course in higher mathematics.
    Ms. Urrutia. I'm also an adult facilitator. I do serve as a 
facilitator for the program as well at one of our sites. So I 
get to actually go in and participate, listen to the feedback, 
and it's very rewarding.
    Senator Specter. Rev. Page, you assigned statistics of 65 
percent of your teens had a reduction in pregnancy. Can you 
amplify that just a little more?
    Rev. Page. As far as where those statistics come from or 
what that means in the lives of?
    Senator Specter. What is the evidentiary base for your 
conclusion that there has been a 65 percent reduction in teen 
pregnancy?
    I'm about to ask Mr. Fay this question about the Minnesota 
study. I'm about to call on Mr. Evans to amplify his statistic, 
that he made a statistic of 60 percent, and you were very proud 
of your programs. What I would like to do, it's not possible to 
have a comprehensive analysis with the experience we've had 
here. But I think anecdotally it is worthwhile to explore, 
which is what I want to do. I tip my question to Mr. Fay, so he 
will be prepared, not that he wouldn't be anyway.
    Rev. Page. Because our program is school district based and 
young people of that age are in school, the vast majority of 
them, those statistics are very easy for us to come up with. 
The school district knows when those teen pregnancies happen. 
Those come from--our program has been going on for 7 years, and 
so we are using the figures from 8 years ago before the program 
started and the program's most recent survey.
    Senator Specter. Mr. Evans, you a cited 60 percent figure. 
Can you amplify?
    Mr. Evans. Sixty percent figure with regards to? When I was 
talking about Penn State----
    Senator Specter. You were talking about pregnancy and I 
thought I heard you say 60 percent.
    Mr. Evans. No. Actually within our program we've served 
over 1,000 youth, to our knowledge, which is documented. We 
have those in our figures that we submit to the department. 
However, there has always been to our knowledge one pregnancy 
during that time for individuals who went through our program. 
I can't attest to the fact if any of those individuals have had 
sexual intercourse. But to our knowledge, there has only been 
one pregnancy during that time by those individuals.
    Senator Specter. You don't have any comparison, though, as 
to how many there had been before?
    Mr. Evans. No. All I have is Penn State percentages, which 
in Luzerne County is 3.4 percent. And within that, within the 
housing authorities themselves, Mercy Hospital, Mercy Health 
Span, who has clinics directly in all the low income housing 
projects in Luzerne County, they believe the number to be close 
to 6 percent. So I'm sorry. That's where that came from. That 
was 6 percent, not 60.
    So when I look at those numbers, to me our program is 
doing--it's absolutely phenomenal when you look at the rate who 
have gone through our program. When you are talking about one 
individual versus the rest of that same population that we are 
dealing with, where possibly could be looking as high as 6 
percent or minimally probably as low as 3-something percent.
    Senator Specter. Mr. Fay, you have cited the Minnesota 
study. I'm familiar with it, but I don't have the details. I 
have a one page summary of it.
    Mr. Fay. Neither do I.
    Senator Specter. What is your evaluation just from your 
experience and judgmental factor? You heard the testimony of 
Dr. Horn about the studies that he cited, you heard what the 
witness here has said. Do you think that abstinence-only 
education is not effective in reducing teenage pregnancy?
    Mr. Fay. I wouldn't go that far. I think the jury is still 
out. And that's why I asked, where is the evidence. I would be 
very interested to see. And my question would be, are they 
reducing teen pregnancy or have they indicated an increase in 
abstinence. Because there are two different things. You think, 
if we're increasing the number of teens who are abstaining, 
won't that automatically reduce teen pregnancy. Not 
necessarily.
    My concern is that abstinence-only programs may actually 
decrease contraceptive use among teens who ultimately decide to 
have intercourse. And the concern I have is, and I think it 
needs to be studied, is to what extent are emphasis only on 
failure rates of contraception actually scaring kids or 
dissuading kids from protecting themselves when they do begin 
to have intercourse, which most people do at some point in 
their lives. I think most abstinence programs from what I've 
seen that actually show delay in sexual activity, which is good 
and something everyone supports, they also show that once those 
teens begin to have intercourse they are less likely than a 
control group to protect themselves, which therefore makes them 
more at risk for pregnancy and disease.
    I think we have to be very careful about the messages we 
are conveying to children about contraception. These programs 
are scaring them out of using condoms or exaggerating the 
failure rates of condoms. Many teens are going to think what's 
the point of using a condom if, you know, I've just learned 
that they are ineffective.
    Senator Specter. Mr. Fay, you have testified that you 
oppose depriving teens about information on birth control. Do 
you think there is something of a mixed message or a message 
which is not really promoting abstinence if at the same time 
you say to the teen, if you decide to have sex, this is the 
contraception, doesn't that to some extent undercut the first 
message of abstaining?
    Mr. Fay. No, I don't think so. The national campaign did a 
study on that. They surveyed parents and teens. And over two-
thirds believe that that is not a mixed message, that that is 
clear and consistent message. It's a complete message. And we 
don't give teens enough credit. We don't really have much faith 
in the whole educational process if we don't think teens can 
handle that message.
    Dr. Horn mentioned the rates in Europe were so much lower 
that ours. That is the message that they give teens and they 
have no problem following that message. Generally, their rates 
of teen pregnancy are considerably lower than ours. And their 
rates of contraception, more teens who are sexually active are 
well over 90 percent, where in this country it's around 50 
percent. So we're not doing a very good job in this country of 
encouraging sexually active teens to use contraception. 
Obviously, they should wait.
    We should all do everything we can to deliver that clear 
message, wait, wait, wait. That's the message I gave my kids, 
wait until you are older. There is negative--We tend to talk 
about--emphasize pregnancy and disease, but there is also the 
negative emotional consequences of all too early sexual 
activity. We have to really stress that in every way we can to 
get them to delay. I think we can also deliver a consistent 
message about using contraception without making them feel 
guilty, wrong, or confusing them about how effective it's going 
to be.
    Senator Specter. When you talk about denying information 
about contraception, is that really likely? If you talk to them 
about abstinence, don't they already know about contraceptives, 
so there is really no denying them information that they don't 
already have?
    Mr. Fay. Well, I don't think they really do know much about 
it. They may know that it exists. We hold a youth conference 
every year. We are surprised how little they know. Again, I 
wish there were more studies on this. But generally a lot of 
teens don't know enough to use contraception well when they do 
use it. Dr. Horn pointed out that teens have problems using 
contraception effectively. To me the answer is not to tell them 
not to--not to stop educating them about it but educate them 
better.
    It's like when teens turn 16, we teach them how to drive a 
car. That's a more complicated and deadly skill than learning 
how to put on a condom. If they can learn how to drive a car, 
we can certainly learn how to put on a condom properly if we 
give them the proper education.
    Senator Specter. I'm not with you on that analogy, but I'll 
go on. One final question. From the point of view of a public 
policymaker like a senator, when we take a look at the programs 
and you have groups, perhaps religiously oriented, value 
oriented who do not want to get involved in contraception, just 
from their own personal views, don't you think it makes sense 
to have a variety of programs which are available? One is 
abstinence-only, so that we have funds available. Tom Bowman on 
my staff deals with many, many locales with appropriate living 
for them. And then as Dr. Horn testified they also have the 
contraceptive programs, you are not eliminating those. Don't 
you think it makes sense with such different views of people, 
there are really poles apart on this question. If you had to 
find the toughest one that a U.S. Senator has to deal with is 
the pro-life/pro-choice question trying to straddle and trying 
to accommodate a lot of conflicting interests. In that context 
do you see some value in your approach of having a program for 
those who want abstinence-only?
    Mr. Fay. I'm very open minded and so is my organization. 
And I personally think there is no simple answer to this or no 
one approach that's going to work for every teenager. All teens 
are different. I would love to see a variety of different 
approaches tried, funded by the Federal Government, and 
evaluated properly. And for everyone to go into it with an open 
mind, put aside their preconceived notions. Let's all focus on 
the fact that we all want the same end result. We only disagree 
about some of the methods.
    I would take issue with one of the assumptions of your 
question, which is that we're providing birth control. We are 
providing through Title 10, we're providing birth control 
services. But to my knowledge, there is no Federal funding for 
comprehensive or abstinence plus sexuality education. The only 
Federal funding for sexual education programs is abstinence-
only until marriage.
    Senator Specter. Ms. Lesh, when you made a comment about 
abstinence prevention, not intervention, that's an interesting 
concept. Could you expand on that a little?
    Ms. Lesh. I guess from my nursing career taking care of 
teens in these situations where they have been sexually active, 
it would be much easier to help them through life if we could 
have prevented this. We tend to be reactive a lot I find in my 
whole nursing career with a lot of disease processes. And I 
think we can take more initiative to be preventative we could 
really save a lot of teens from having to go through all these 
risks that they do go through.
    Senator Specter. And you are the parent of a 10-year-old 
and a 13-year-old?
    Ms. Lesh. Yes.
    Senator Specter. What ages did you start to give them some 
information about the problems of disease, et cetera?
    Ms. Lesh. Well, actually, we've talked about consequences 
and risks since they were very little. Your choices always have 
consequences. I would say from 5th grade we really started it 
with my older son that is now 13, when we started talking about 
the risks and the consequences. But all through life we've 
talked about decisions have consequences. I think if you start 
with that as a parent at an early age they will make good 
decisions.
    Senator Specter. Thank you very much, Ms. Lesh. Thank you 
Mr. Evans, Ms. Urrutia, Reverend Page, Mr. Fay. I think we will 
rerun this several times on Pennsylvania Cable Network. You've 
said a lot of things that I think are worth listening to.
    We'll move on now to our third panel, Tyler Barth, Jesse 
Walton, Jennifer Bruno, Sierra Leiphart, Nelly Torres, and 
Miranda Shipley. Thank you for joining us. We have asked for 
these young ladies and gentlemen to limit their testimony to 
one minute. So when they are brief, you'll know it's not 
because they don't have a lot more to say.

        STATEMENT OF TYLER BARTH, PERFORMER, ABSTINENCE GROUP
                       CHOICE INITIATIVE

    Senator Specter. Our first witness is Mr. Tyler Barth at 
Central Mountain High School, Mill Hall, Pennsylvania, 
letterman of football, baseball, National Honor Society, and a 
performer of the abstinence group Choice initiative. We look 
forward to your testimony.
    Mr. Barth. Good afternoon, Mr. Specter. Thank you for 
taking the time to listen to the views of the students actually 
about this subject because I mean it's us who you are 
affecting. We appreciate your interest in us.
    As Senator Specter said, my name is Tyler Barth, I'm a 
senior at Central Mountain High School in Lock Haven, 
Pennsylvania, Clinton County. I am 17 years old. I am involved 
in football and baseball where I have lettered 3 years in both 
sports and twice in basketball, which is not mentioned. I'm 
also member of the National Honor Society, president of the 
Nature Club, a member of student council, and performer in the 
Abstinence Skit Group known as Choices. Outside of school I am 
a member of the Church of Christ Youth Group. I referee youth 
sporting events and coach youth baseball clinics.
    I've been a part of Keystone Central School District 
Abstinence program for 4 years. I think this program is a 
successful thing because the education experiences provided by 
our abstinence curriculum have created lifelong valuable 
lessons deep within my heart. Another great point about our 
abstinence program is the ways that it can reach different 
children. We all know children learn different ways and receive 
things through different messages. It's been a great way 
because we've been able to have TV commercials, radio spots, 
and billboards throughout the counties. These experiences 
provide great solutions to peer pressure in the minds of 
students all across the district.
    The program has made a difference in my life in that it has 
helped me to learn creative effective ways to reach my peers 
and younger children who are interested in knowing what 
abstinence is all about. Overall, I can't truly express how 
lucky I am to be part of the abstinence education at our 
school. And it's been a great experience for myself and my 
fellow classmates. And it's just a great opportunity for myself 
to tell everybody else how I feel about abstinence and what it 
truly is and what it's all about.
    Finally, I would like to personally thank Senator Specter 
for making the funding for the abstinence program available for 
our school district. Thank you.

        STATEMENT OF MIRANDA SHIPLEY, VOLUNTEER, PEER EDUCATION, 
                       REAL COMMITMENT PROGRAM

    Senator Specter. Thank you very much. Turn now to Ms. 
Miranda Shipley, Fairfield, Pennsylvania, high school senior 
and volunteer of Peer Education with the Real Commitment 
program. Thank you for joining us. We look forward to your 
testimony.
    Ms. Shipley. Thank you, Senator Specter. I have been 
volunteering with Real Commitment as a peer educator for the 
past 2 years. I am a senior as a home schooled student. As far 
as the education program that we do, we represent our message, 
which is abstinence, through role plays, skits, and our own 
personal experiences as far as why we chose abstinence.
    The children respond very well to what we have to say. We 
have had several evaluation charts that we do at the end of 
each presentation where kids tell us why they think our message 
is good. Real commitment is a non-profit abstinence education 
organization. And it's been my greatest desire to serve people 
in mine and other communities and to have a positive impact on 
the people of my country.
    When I discovered the need for Peer Educators for Real 
Commitment, I jumped at the chance to be involved. Kids and 
parents I think are creating a new message. Real Commitment is 
something with meaning that they can take to heart. Something 
that they never heard before or at least not in such an 
influential way. I've gained so much from Real Commitment, from 
Director Jean Fletcher and Coordinator Marya Tipton.
    My whole experience in this organization has been such a 
blessing to my life that I wanted to give something back. The 
best opportunity for me to do that would be for my senior 
project, which is coordinating a fashion show about modesty. My 
goal for this fashion show is to present a clear and attractive 
picture of how we can be as people to look decently in 
attractive attire, not exploiting ourselves as sexual objects, 
but presenting ourselves as respectful individuals.
    My purpose today was to tell you our abstinence education 
program. Some may say abstinence programs are a waste of time. 
It is true that some will choose to ignore helpful information. 
But that doesn't mean that the information shouldn't be 
presented, because some will choose to benefit from it.
    I wanted to read a statement from one girl in the Adams 
County area. After presenting the program to middle school in 
the Adams County area, I was reading comments on performance of 
myself and other peer educators. This one came from an 8th 
grade girl, and it went like this.
    I really enjoyed your program. I liked what you had to say. 
I only wish you could have been here a couple weeks ago. I'm 
already pregnant.

                           PREPARED STATEMENT

    There are other young people who are in need of this 
message who would choose a better way if only they knew how. 
That 8th grade girl heard what we had to say and wished for a 
better choice. Other teenagers do, too.
    Finally, I would like to think Senator Specter for the 
abstinence-only education funding that has enabled Real 
Commitment to continue its work. I would like to request that 
future funding continue. Thank you.
    [The statement follows:]

                 Prepared Statement of Miranda Shipley

    My name is Miranda Shipley. I am a 16--soon to be 17--year old home 
schooled senior. I have been volunteering with Real Commitment for two 
years (since 2002) as a Peer Educator. I am very excited about this 
organization for the many different opportunities it has offered me. 
Opportunities such as speaking in front of a variety of people, sharing 
a good message with a strong impact, meeting many kids of the same age 
with like-goals and working with good, strong women such as Jean 
Fletcher and Marya Tipton.
    The responses that the group receives vary, but for the most part 
they are very good. People in the public school, private school and 
home school remain alike, see the desperate need for the very message 
Real Commitment is delivering, that is the message of purity.
    Through my involvement with Real Commitment and the satisfaction I 
have gained from it, I have desired to give something back. Because of 
that I am coordinating a fashion show about modesty through Real 
Commitment for my senior project. I feel, as well as many other people 
feel, that modesty plays a key role in abstinence in both males and 
females. Modesty is more than what a person wears it is an attitude. 
That attitude has sadly been corrupted over generations of time and it 
is my goal and the goal of the people involved with Real Commitment to 
deliver a sound message about not only a change in wardrobe but also a 
change in attitude. This we hope to accomplish through the fashion 
show, ``Smashin' Fashion'' which will be held March 6th at the 
Gettysburg College Ballroom. This is my gift to Real Commitment.
    I would like to thank Senator Specter for the abstinence only 
education funding that has enabled Real Commitment to continue its work 
and I would like to request that, that funding continue. Thank you.

    Senator Specter. Thank you very much. Appreciate that, 
especially lobbying for more money.

      STATEMENT OF NELLY TORRES, PEER EDUCATOR, IMPACT GROUP

    Senator Specter. We return now for Ms. Nelly Torres, junior 
at Millersville University, graduated from J.P. McKaskey High 
School in Lancaster, and is peer educator with the IMPACT 
Group. Thank you for sharing your stories, and the floor is 
yours.
    Ms. Torres. Good afternoon, ladies and gentlemen. My name 
is Nelly Torres. I'm a graduate of J.P. McKaskey High School 
and presently a junior at Millersville University, majoring in 
communications with an option in theater. Post-graduation I 
would like to work for the youth on play productions that are 
self-written by myself and performed by plays involving all 
ages and continue to work for the Impact program.
    IMPACT stands for Individuals Motivated to Promote 
Alternative Choices for Teens. I'm a peer educator and peer 
mentor for grades 6 through 12th. And I assist with the after-
school program held for middle school students. I've been 
involved with IMPACT program for 6 years, 4 years as a student 
and 2 years as an employee. The program was exceptionally 
helpful in ascertaining my strengths and weaknesses.
    I found a place to where I could voice my opinions and 
address my concerns and take action. I discovered that I could 
work with students and effectively educate them and make a 
difference in their lives, thus making a difference in mine. I 
also realized that I didn't have all the knowledge that I 
thought I possessed, and there was always room to learn and 
grow, to be strong and healthy and an active member in my 
community.
    I recall as a student how my friends would tell me that I 
needed a boyfriend and why I didn't let them set me up with 
someone. I felt like I was the only one, you know, uninterested 
in relationships and sex, preferring to pursue my education, so 
I wouldn't have to struggle like my mother did and most 
families that I knew had to.
    I love volunteering and helping. And IMPACT served as a 
support system that I needed that I wasn't getting anywhere 
else. People view me as a strong individual, but it's also nice 
to have others to be strong with.
    Education is the tool we need to be equipped with to 
abstain from the daily pressures we face. If not, we can 
continue to see children lose their innocence, babies having 
babies, less students graduating with diplomas and acquiring a 
college education and a healthy foundation for a family. We all 
are affected in some shape or form.
    So in closing, on behalf of IMPACT program, parents, and I 
myself would like to thank you, Senator Arlen Specter, for 
funding us for these past few years on carrying out our goals 
for abstinence-only education, in the efforts of getting our 
children back and giving them a fighting chance to have a 
successful future. Without your support many of our youth, such 
as myself, wouldn't have an avenue to bypass many pressures and 
be individuals motivated to promote alternative choices for 
teens akin to themselves. Thank you very much.

     STATEMENT OF SIERRA LEIPHART, VOLUNTEER, HUMAN LIFE 
                 SERVICES, YORK COUNTY, PA

    Senator Specter. Thank you. Sierra Leiphart is a junior at 
Dallastown Area High School, honor student, volunteer with 
Human Life Services, a pregnancy resource center in York 
County. Thank you for coming up to Harrisburg, Ms. Leiphart, 
and we look forward to your testimony.
    Ms. Leiphart. Thank you. As he said, my name is Sierra 
Leiphart, and I'm an honor student at Dallastown High School. 
I'm 17 years old, and I enjoy traveling. I have been to 
Australia and Europe with People to People Student Ambassadors, 
which is a nationwide organization that promotes peace between 
nations through the education and interaction of students to 
close the gap between different cultures. I've also been to 
Ecuador on a missions trip with Focus on the Family, a non-
profit Christian organization based out of Colorado Springs, 
Colorado.
    In addition to traveling, I have been a teen abstinence 
presenter and a spokesperson at the annual banquet for Human 
Life Services. I've been a part of Human Life Services' It's 
Smart to Wait program for a year. I believe the program is 
having a strong impact on students' choices about sexual 
activity. It covers topics from relationships to the 
consequences of having premarital sex. This program is very 
straightforward but is not forceful in its view of abstinence. 
The choice the student chooses to make is his or her personal 
choice, but the consequences may reach farther than just that 
one student. The content of the Smart to Wait program is 
current information that can affect personally each student's 
life.
    I would like to thank on behalf of Human Life Services 
Senator Specter for providing funding for the education 
department at Human Life Services and for its continued support 
of abstinence education.

       STATEMENT OF JENNIFER BRUNO, BOARD MEMBER, YOUTH AS 
                        RESOURCES PROGRAM

    Senator Specter. Thank you. Our next panelist is Ms. 
Jennifer Bruno, student at Lehigh Valley High School performing 
arts in Bethlehem, board member of Youth as Resources program. 
Thank you for coming over today, Ms. Bruno. We welcome your 
testimony.
    Ms. Bruno. In January 2003, I entered YAR Goes to College 
program at Northeast Middle School and participated in the 
developing and acting in an abstinence education video which 
was partially funded through the CHOICES program. Doing this 
and becoming involved in both CHOICES program and Youth As 
Resources helped me change my life forever.
    See, the summer of 2002 I moved from the Bronx, New York, 
for a better life, but things just got worse. I was getting 
pushed around and made fun of for no reason and getting in 
trouble in school. It got so bad one day that I brought a flip 
knife to school. It really belonged to a boy I was going out 
with at the time, but he was no help either. He just helped me 
get into more trouble and more problems. I wasn't really 
planning to use the knife, but the school found out and called 
the police. I was searched, my grandparents sat in the office 
so very disappointed, and I was put into probation for 6 
months.
    But then January 17, 2003, I was given a second chance in 
life when I joined Youth As Resources, and we decided to work 
with the Choices program. I loved making the video about 
pregnant teens and teaching others how to say no to sex. 
Working with the Choices program helped me get the confidence 
to make my own decisions about relationships, life, and my 
career.
    For example, I auditioned for the School of Performing Arts 
and was accepted. I am proud to say in addition to creating and 
acting in the abstinence education video, I am also chairperson 
of the fundraising committee for Youth As Resources. The 
creator and editor of Youth As Resources newsletter and 
tomorrow hopefully will be elected vice-president.
    Thank you for allowing me to speak to you today about this 
very important pre-teen and teen issue. Thank you, Senator 
Specter, for supporting the Choices program in Pennsylvania. 
Thank you very much. Can I ask the staff to hand him the video?

   STATEMENT OF JESSE WALTON, STAFF MEMBER, BOYS TO MEN PROGRAM

    Senator Specter. Our next witness on this panel is Mr. 
Jesse Walton, staff member of Boys to Men program, graduate of 
McKeesport High School, involved in youth programming at Mercy 
Hospital of Pittsburgh. Thank you for your testimony, Mr. 
Walton, which we are about to hear.
    Mr. Walton. Thank you. Good afternoon. My name is Jesse 
Walton. I'm 19 years old. I was introduced to Boys to Men 
program when I was about 14, 15 years old. I was given an 
ultimatum by a teacher at school, either join the new program 
or be expelled. Personally, I would have chosen to let her kick 
me out of school, but my mother and my father wouldn't let me. 
At first I wasn't interested in the program. I was more 
interested in the life that my friends had to offer.
    But shortly after joining the Boys to Men program, a group 
of us went on a trip that we like to call destiny trip. This 
was a field trip to a cemetery, dinner at a buffet, and also a 
visit to western penitentiary. While we were at the cemetery, 
we saw the graves of students who were my age and some even 
younger that had died as a direct result of gang activities. 
The staff helped me to see that how the choices--how the 
consequences of the choices we make have permanent outcomes, 
and that it is up to me to choose a path for my life and be 
responsible for the consequences that result. As a result of 
that trip, my eyes have been opened. And with the help of the 
Mercy staff, I was able to focus on creating a new and 
promising future for myself.
    I did this by graduating from high school with honors, as 
well as graduating as one of the top 10 African-American 
students in my graduating class and becoming president of the 
Boys to Men program my senior year.
    For the past 2 years I have been working at Mercy Hospital 
of Pittsburgh in the community programming department teaching 
the Boys to Men curriculum to other youths such as myself. I've 
worked with hundreds of kids that I have made relationships 
with. And thanks to those relationships I have learned new 
techniques that help me service my students better.
    So thank you, Senator Specter, for allowing this program to 
change my life and allowing me to help change the lives of my 
students. Thank you.
    Senator Specter. Thank you very much, Mr. Walton. Let me 
start with a tough question that I won't direct at anybody in 
particular but to the panel as a whole. And that is, have any 
of you ever found yourself in a compromising situation where 
you were tempted to do the wrong thing but found sustenance 
support from your abstinence education to pull you back, so to 
speak, from the brink of disaster attributing your strength to 
the abstinence education program?
    Ms. Shipley. I have, Senator. Over the summer----
    Senator Specter. Tell us all about it.
    Ms. Shipley. Over the summer there was a young man that I 
was seeing, and he was well aware of my commitment and how I 
was working with Real Commitment and the plans I had for my 
future. He seemed to act like he wanted to go along with that 
as well. But then later he started asking me questions about 
being intimate and things like that. I, of course, told him no. 
But it was really hard. He was using other pressures as far 
as--I'm trying to think of the correct term--aggressiveness. He 
would--it's called emotional abuse. And he would do that. 
Finally, I just broke up with him.
    It was after a Real Commitment Youth retreat. I had taken 
him to it. After sitting through those sessions, I was again 
realizing what this group had to offer and I was part of it. I 
broke up with him the next day.
    Senator Specter. Congratulations. Anybody else have similar 
experience they would like to share? Jennifer Bruno.
    Ms. Bruno. I was at a party and I was with my friends, and 
all of us had a boyfriend. So most of the girls that were my 
friends were like going to rooms and kissing and everything. 
And two of my best friends decided that they were going to go 
with their boyfriends downstairs and they asked me if I wanted 
to go, and I said no because I knew what was going to happen.
    So after the party was over, I went to the performing arts 
school and they went to Liberty. And I didn't see them for like 
3 months. I recently found out that both of them had babies. 
And I was proud of the decision that I made and that I chose to 
stay abstinent.
    Senator Specter. That's pretty persuasive proof I'd say. 
Pastor Page talked about people being more open about talking 
about abstinence in front of their peers. Let me ask you, 
either Mr. Walton or Mr. Barth, there is a tradition for locker 
room talk about conquests. Not too hard to talk about that, 
whether it's true or not, that is whether the conquests are 
true or not.
    Is there more of an inclination after the abstinence 
education to stand up with your peers and say, I have 
abstained, I'm not doing it to counteract the traditional peer 
pressure to be a part of the group and to engage in the sexual 
activities?
    Mr. Barth. I'm glad you could come up with a question that 
I could relate to so easily, being athletic and being a member 
of several sports teams.
    Senator Specter. You say you're glad I came up with the 
question that you could relate to?
    Mr. Barth. Yes.
    Senator Specter. You couldn't have answered the first 
question about being on the brink of temptation?
    Mr. Barth. Well--you got me.
    Senator Specter. I'm asking another question. Stop 
blushing.
    Mr. Barth. No. But in all serious, locker room talk is a 
big part of high school athletics. I'm sure anybody can tell 
you that. And it's more of like when it comes up, students 
don't necessarily, after receiving the education in our health 
classes and our abstinence education performances and whatnot, 
it's not necessarily that student athlete has to say, look, 
guys I learned about this in abstinence education class, I'm 
not going to do it. They don't even have to mention it. It's 
just a fact that it's in some kids hearts. And it's just a fact 
that they can say no without explaining why. It's a great 
testimony to what we do at our school. And it's great to see 
the kids that are affected by it. And it absolutely comes up. 
It's like an everyday occurrence, guys will come in and say, 
did you hear about this and stuff like that and the kids----
    Senator Specter. Stuff like what?
    Mr. Barth. Stuff like sexual activities that occurred the 
night before, weekend before, or even like alcohol. That's part 
of our abstinence, abstaining from alcohol use and drug and 
tobacco use. Any of that comes up, kids can just have the 
strength and understand in our school that it's okay to say, 
hey, I'm not a part of that nor do I look forward to being a 
part of it. And it's just a great atmosphere to have. And it's 
great camaraderie between students to be able to stand up 
together and say we don't support this.
    Senator Specter. Ms. Torres, you commented that some of 
your friends say you needed to have a boyfriend and tried to 
fix you up.
    Ms. Torres. Yes, they did. I disagreed.
    Senator Specter. You're not testifying that you need to be 
fixed up, are you?
    Ms. Torres. No.
    Senator Specter. Tell us a little more about your friends 
saying that, I think as you put it, quote, needed a boyfriend, 
closed quote, how you responded to that kind of peer pressure.
    Ms. Torres. I said no, I don't, I don't need a boyfriend. 
I'm fine just as Nelly. Nelly is an individual. I'm going to be 
myself, and that's not a problem.
    Senator Specter. You're self-sustaining?
    Ms. Torres. I'm very self-sustaining. And that finding 
another program that took my values, took my morals so 
seriously helped, and that's why it was nice to have that 
support system there because you can be a strong individual and 
still have a support system--still need a support system.
    Senator Specter. Ms. Leiphart, to what extent have you 
found the abstinence training helpful in resisting peer 
pressure from what may be all around you? Were you surprised by 
the statistic, 46 percent of high school students have had 
sexual intercourse?
    Ms. Leiphart. No, I wasn't surprised by that. There are a 
couple of girls at school who they would be talking to their 
friends or talking about something that they did this weekend. 
When I say, well, you know, I'm not really into that, I don't 
want to do that type of thing, they are just amazed that I 
haven't done anything with my boyfriend. We've been together 
for about 2 years. And they are just amazed that in 2 years we 
haven't done anything and we don't fool around and we haven't 
had sex.
    It's kind of been another reason to keep my stand on 
abstinence. My mom is a presenter for HLS. And she asked before 
if it would be okay if she used me and my boyfriend as an 
example, that not every teenage couple is having sex or 
sleeping around. I told her that would be fine. To me, that's 
kind of--it's like a reason, another reason not to just give in 
to peer pressure and temptation because then, you know, I would 
be disappointing her and myself and the program as a whole. It 
wouldn't only affect me.
    Senator Specter. We have other students who are with us 
today who are not witnesses. I would like to ask every other 
student who is part of an abstinence program to stand.
    We are going to be pursuing these questions. I think 
today's hearing was really very, very much worthwhile. Mr. Fay, 
who has dissented from the program, has raised a couple of 
points which I am going to pursue under the Pennsylvania study, 
No Commitments, but I am going to make inquiries to see about 
the study and find out more about it. I had not heard of it, to 
see if it would be appropriate for me to weigh in or for the 
subcommittee to weigh in and have a disclosure.
    When you said there is no comprehensive program in the 
other direction, I want to take a look at that because I think 
that in a culture as complex as ours on a subject as sensitive 
as this there ought to be all viewpoints expressed.
    I came to this hearing a believer in abstinence. And I have 
worked hard to develop it. Really when I became chairman of the 
subcommittee there was--we had initiated the program during my 
tenure. And these students are really very, very impressionable 
and very candid. And that candor and that openness and 
willingness to speak up is indicator of confidence, you know 
who you are. Ms. Torres expresses it very well. She's self-
sufficient, she knows who she is, she doesn't need anything to 
boost her ego. I think that's a sense that has come across from 
everybody who has testified here today.
    So thank you all for coming. We're going to go back to 
Washington. And I've listened very closely to very effective 
lobbying in this room today for more funding. Thank you.

                         CONCLUSION OF HEARING

    Thank you all very much for being here. That concludes our 
hearing.
    [Whereupon, at 3:20 p.m., Monday, February 16, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                  <all>


</pre></body></html>
